  ~AMTRAK
      NATIONA LRA ILROAD
      PASSENGER CORPORATION
                                         Office of Inspector General



Memorandum
To:           Gerald Sokol, Jr.
              ChiefFinanCi~?1.:cer ~         1-
From:         David R. warrYn' t:::;
              Assistant Inspector General, Audits

Date:         AprilS, 2014

Subject:      Engagement Memo - Employee Time Charges
              (Project Code 007-2014)

At the request of company management, the Office of Inspector General is initiating a
follow-up audit on the management of overtime. The objective of this audit is to
develop information on time charge patterns of employees.

During this audit, we plan to analyze time charges reported by employees in the
Engineering, Mechanical, Police, and Transportation departments, and interview
company personnel, particularly from Labor Relations. We will work to minimize the
impact by coordinating interviews with staff in advance.

Our work will be performed in accordance with Generally Accepted Government
Auditing Standards. Our interactions with the company will be consistent with P/I2.1.3
which sets forth the relationship between the OIG and the company. In particular,
section 7.0 of the policy discusses coordination between Amtrak officials and the IG on
audits and evaluations. P/I2.1.3 can be found at
http://wiki.corp.nrpc/download/attachments/35S6/0IG=Relationship+Policy+111101.pdf
?version=l




                       10 G Street, NE, 3W-300, Washington, D.C. 2002
                         202-906-4600/ Fraud Hotlin e 800-468-5469
We request that your office arrange an entrance conference for us with the appropriate
Amtrak officials at the earliest possible date. We will keep you informed of the status of
our work and any material changes in our objective, should they occur.

Michael Kennedy, Senior Director, Audits, will be leading this assignment. If you have
questions, please contact me at (202-906-4742 or by email at
David.Warren@amtrakoig.gov) or Michael Kennedy at (202-906-4308 or by email at
Michael.Kennedy@amtrakoig.gov).

cc:
       DJ Stadtler, Vice President, Operations
       William Herrmann, Deputy Managing General Counsel
       Matthew Gagnon, Senior Director, Business Process and Management Control
       Melantha Paige, Senior Audit Liaison




                       10 G Street, NE, 3W-300, Washington, D .C. 2002
                         202-906-4600/ Fraud Hotline 800-468-5469
